                                                           OCCUPATIONAL SAFETY AND
                                                           HEALTH ADMINISTRATION


             Office of Inspector General—Office of Audit




                                                           COMPLAINANTS DID NOT ALWAYS RECEIVE 

                                                           APPROPRIATE INVESTIGATIONS UNDER THE 

                                                           WHISTLEBLOWER PROTECTION PROGRAM 





                                                                              Date Issued:   September 30, 2010
02-A12-345-67-890                                                          Report Number:      02-10-202-10-105
U.S. Department of Labor                                   September 2010
Office of Inspector General
Office of Audit
                                                           COMPLAINANTS DID NOT ALWAYS RECEIVE
                                                           APPROPRIATE INVESTIGATIONS UNDER THE
                                                           WHISTLEBLOWER PROTECTION PROGRAM
BRIEFLY…
                                                           WHAT OIG FOUND
Highlights of Report Number 02-10-202-10-105, to
the Assistant Secretary for Occupational Safety and        During the audit period, 77 percent of the Whistleblower
Health.                                                    complaints under OSHA 11(c), Sarbanes-Oxley Act
                                                           (SOX), and Surface Transportation Assistance Act
WHY READ THE REPORT                                        (STAA) were either dismissed or withdrawn.
                                                           Settlements which accounted for 21 percent were
The Occupational Safety and Health Administration          generally minimal, and the remaining 2 percent were
(OSHA) created the Whistleblower Protection Program        found to have merit.
to enforce Section 11(c) of the Occupational Safety and
Health (OSH) Act of 1970, which prohibits employers        OSHA did not always ensure that complainants
from retaliating against employees who exercise their      received appropriate investigations under the
rights under the OSH Act which include reporting safety    Whistleblower Protection Program. We estimate that 80
or health violations to OSHA and participating in any      percent of applicable investigations under OSHA 11(c),
proceeding related to an OSHA inspection. Since 1983,      SOX and STAA did not meet one or more of eight
OSHA has been assigned whistleblower provisions            elements from the Whistleblower Investigations Manual
under 16 additional statutes related to the trucking,      that were essential to the investigative process. OSHA
nuclear power, pipeline, environmental, rail, consumer     can improve investigations under the Whistleblower
product safety, and securities industries. OSHA            Protection Program if it (1) supervises investigations
investigates complaints of discriminatory actions taken    adequately, (2) manages regional investigators’
against employees who “blow the whistle” under the         caseloads adequately, (3) oversees and monitors
OSH Act or any of these additional whistleblower           investigations for compliance with policies and
statutes.                                                  procedures, (4) develops performance measures or
                                                           indicators for the whistleblower program, and (5)
WHY OIG CONDUCTED THE AUDIT                                provides adequate guidance to investigators. As a
                                                           result of not providing complainants with thorough
Over the past 20 years, we have issued three reports       investigations, OSHA could not provide assurance that
related to OSHA’s whistleblower program. Our findings      complainants were protected as intended under the
ranged from incomplete case files to settlement            various whistleblower protection statutes.
procedures that may have deprived complainants of full
and appropriate relief. In addition, GAO issued an audit
report in January 2009 and found that OSHA lacked          WHAT OIG RECOMMENDED
reliable data on investigations and its investigators
lacked the resources, training and legal assistance        We recommended that the Assistant Secretary for
required to perform investigations.                        Occupational Safety and Health implement controls to
                                                           oversee and monitor investigations and caseloads,
We conducted an audit of OSHA’s whistleblower              develop specific performance measures, update the
program to answer the question: To what extent did         Whistleblower Investigations Manual, and designate
OSHA ensure that complainants received appropriate         subject matter experts with technical competencies in
investigations under the Whistleblower Protection          specific whistleblower statutes.
Program?
                                                           In response to our draft report, the Assistant Secretary
READ THE FULL REPORT                                       stated that he agreed with the recommendations. OSHA
                                                           is in the process of performing a top-to-bottom review,
To view the report, including the scope, methodology,      including assessing whether to restructure the Office of
and full agency response, go to:                           the Whistleblower Protection Program. The Assistant
http://www.oig.dol.gov/public/reports/oa/2010/02-10-       Secretary stated the review will incorporate the valuable
202-10-105.pdf.                                            perspective and recommendations received from this
                                                           audit report.
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                          OSHA Whistleblower Protection Program
                                   Report No. 02-10-202-10-105
                                                             U.S. Department of Labor – Office of Inspector General 





Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Results In Brief .............................................................................................................. 2


Objective — To what extent did OSHA ensure that complainants received 

appropriate investigations under the Whistleblower Protection Program? ............ 3

         OSHA did not always ensure complainants received appropriate 

           investigations and, therefore, cannot provide assurance that 

           complainants were protected as intended under the various 

           whistleblower protection statutes .................................................................... 3


         Finding — OSHA did not always ensure that complainants received 

            appropriate investigations under the Whistleblower Protection Program ........ 3


Recommendations ...................................................................................................... 11


Exhibits
         Exhibit 1 Results Of Case File Testing ............................................................... 15

         Exhibit 2 Whistleblower Protection Statutes ....................................................... 17


Appendices
         Appendix A Background ..................................................................................... 21

         Appendix B Objective, Scope, Methodology, and Criteria .................................. 23

         Appendix C Acronyms and Abbreviations .......................................................... 27

         Appendix D OSHA Response to Draft Report .................................................... 29

         Appendix E Acknowledgements ......................................................................... 35





                                                                              OSHA Whistleblower Protection Program
                                                                                       Report No. 02-10-202-10-105
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                          OSHA Whistleblower Protection Program
                                   Report No. 02-10-202-10-105
                                           U.S. Department of Labor – Office of Inspector General 




U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




September 30, 2010

                        Assistant Inspector General’s Report



David Michaels, PhD, MPH
Assistant Secretary of Labor for
  Occupational Safety and Health
U.S. Department of Labor
200 Constitution Ave., NW
Washington, D.C. 20210


The Occupational Safety and Health Administration (OSHA) created the Whistleblower
Protection Program to enforce Section 11(c) of the Occupational Safety and Health
(OSH) Act of 1970, which prohibits employers from retaliating against employees who
exercise their rights under the OSH Act which include reporting safety or health
violations to OSHA and participating in any proceeding related to an OSHA inspection.
Since 1983, OSHA has been assigned whistleblower provisions under 16 additional
statutes related to the trucking, nuclear power, pipeline, environmental, rail, consumer
product safety, and securities industries. OSHA investigates complaints of
discriminatory actions taken against employees who “blow the whistle” under the OSH
Act or any of these additional whistleblower statutes.

We conducted an audit of OSHA’s whistleblower program to answer the following
question:

      To what extent did OSHA ensure that complainants received appropriate
      investigations under the Whistleblower Protection Program?

The audit covered OSHA practices, policies and procedures as of June 2010. The audit
examined whistleblower investigations conducted under the OSHA 11(c), Sarbanes-
Oxley Act (SOX) and Surface Transportation Assistance Act (STAA) statutes which
received an initial determination from OSHA during the 12-month period ending October
31, 2009. These investigations accounted for 87 percent of OSHA’s caseload during our
audit period. We conducted field work at OSHA headquarters in Washington, D.C. and
at four regional offices.

To accomplish our objective, we obtained an understanding of applicable laws,
regulations, and OSHA’s policies and procedures governing whistleblower
investigations; conducted case file testing; interviewed OSHA personnel at the national
and regional levels; and reviewed documents and reports related to the whistleblower

                                                            OSHA Whistleblower Protection Program
                                             1                       Report No. 02-10-202-10-105
                                          U.S. Department of Labor – Office of Inspector General 




program. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audits to obtain sufficient and appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provided a reasonable basis for our findings and conclusions based
on our audit objective.

RESULTS IN BRIEF

OSHA did not always ensure that complainants received appropriate investigations
under the Whistleblower Protection Program. We estimate that 80 percent of applicable
investigations under OSHA 11(c), SOX and STAA did not meet one or more of eight
elements from the Whistleblower Investigations Manual that were essential to the
investigative process. OSHA can improve investigations under the Whistleblower
Protection Program if it (1) supervises investigations adequately, (2) manages regional
investigators’ caseloads adequately, (3) oversees and monitors investigations for
compliance with policies and procedures, (4) develops performance measures or
indicators for the whistleblower program, and (5) provides adequate guidance to
investigators. As a result of not providing complainants with thorough investigations,
OSHA could not provide assurance that complainants were protected as intended under
the various whistleblower protection statutes.

Furthermore, OSHA’s Whistleblower Investigations Manual had not been updated since
2003 and investigators did not have any written guidance on how to conduct
investigations under the three new whistleblower statutes assigned to OSHA since the
last update. Additionally, many investigators did not have access to subject matter
experts for technical guidance on the 17 statutes they were responsible for enforcing.

We recommend the Assistant Secretary for Occupational Safety and Health implement
controls to oversee and monitor investigations and caseloads, develop specific
performance measures, update the Whistleblower Investigations Manual, and designate
subject matter experts with technical competencies in specific whistleblower statutes.

In response to our draft report, the Assistant Secretary for Occupational Safety and
Health stated that he agreed with the recommendations. OSHA is in the process of
performing a top-to-bottom review of the program, including assessing whether to
restructure the Office of the Whistleblower Protection Program. The objective is to
identify any weaknesses and inefficiencies in the program and improve the way OSHA
conducts this very important activity. The results of this comprehensive evaluation will
include recommendations on programmatic changes to ensure that there is consistency
and program delivery is greatly improved. The Assistant Secretary stated the review will
incorporate the valuable perspective and recommendations received from this audit
report.

The Assistant Secretary’s response is included in its entirety as Appendix E.



                                                       OSHA Whistleblower Protection Program
                                            2                   Report No. 02-10-202-10-105
                                                  U.S. Department of Labor – Office of Inspector General 




RESULTS AND FINDING

Objective — 	 To what extent did OSHA ensure that complainants received
              appropriate investigations under the Whistleblower Protection
              Program?

        OSHA did not always ensure complainants received appropriate investigations
        and, therefore, cannot provide assurance that complainants were protected as
        intended under the various whistleblower protection statutes

Finding — 	 OSHA did not always ensure that complainants received appropriate
            investigations under the Whistleblower Protection Program

OSHA did not always ensure that complainants received appropriate investigations
under the Whistleblower Protection Program. We estimate that 80 percent 1 of
applicable investigations under OSHA 11(c), SOX and STAA did not meet 1 or more of
8 elements from the Whistleblower Investigations Manual essential to the investigative
process.

The OSHA Whistleblower Investigations Manual sets forth policy, procedures and other
information relative to the handling of whistleblower complaints under the various
statutes delegated to OSHA. We tested investigative case files against eight elements
identified in Whistleblower Investigations Manual. These elements are essential to the
investigative process to ensure that complainants receive appropriate investigations.


Results of Case File Testing
Element Tested                                                             Exceptions        Error Rate
1) Conduct formal interview with complainant 	                                         33            23%
2) Document interview with complainant via signed statement or
digital recording                                                                      19            22%
3) Obtain suggested witnesses from complainant 	                                       48            44% 

4) Interview (or attempt to interview) all pertinent complainant
witnesses                                                                              21            37%
5) Document complainant witness interviews via signed
statement or digital recording                                                         12            38%
6) Conduct face-to-face interviews or on-site investigative work 	                     66            46% 

7) Allow complainant an adequate opportunity to refute
employer’s defense or resolve discrepancies                                            40            38%
8) Conduct closing conference with complainant 	                                       14            15%



1
  This is the unbiased point estimate. Based on sample results, we are 90 percent confident that errors
ranged between 72 percent and 87 percent. See Appendix B for Sample Methodology.

                                                                 OSHA Whistleblower Protection Program
                                                    3                     Report No. 02-10-202-10-105
                                                  U.S. Department of Labor – Office of Inspector General 




A brief description of each element, summary of audit results and description of the
related policies and procedures follows. (See Exhibit 1 for the detailed projections
related to each element.)

        Elements 1 and 2 — Conduct formal interview with complainant and document
        interview via signed statement or digital recording — In 23 percent of applicable
        investigations, there was no evidence that the investigator conducted a formal
        interview with the complainant detailing the allegation. Furthermore, in 22 percent
        of applicable investigations, investigators did not obtain a signed statement or
        digital recording documenting the interview with the complainant 2 . The
        Whistleblower Investigations Manual states that investigators will arrange to meet
        with a complainant as soon as possible to interview and obtain a signed
        statement detailing the complainant's allegations. Signed statements are highly
        desirable and useful for purposes of case review, subsequent changes in the
        complainant's status, possible later variations in testimony, and documentation
        for potential litigation. Complainants should never be instructed to submit a
        statement without engaging in the interview process.

        Element 3 — Obtain suggested witnesses from complainant — In 44 percent of
        applicable investigations, the investigator did not identify any complainant
        witnesses and there was no evidence in the case file that the investigator
        attempted to elicit this information outside of a routine notification letter or
        questionnaire mailed to the complainant. This information is critical to
        successfully develop relevant and sufficient evidence in order to support the
        complainant’s allegation and reach an appropriate determination of the case. The
        Whistleblower Investigations Manual states that the complainant’s side of the
        investigation must be developed as thoroughly as possible and complainants
        should be encouraged to identify as many witnesses as possible, including a
        summary of specifically what each witness might be able to testify to in support of
        the complainant's allegations.

        Element 4 — Interview (or attempt to interview) all pertinent complainant
        witnesses — In 37 percent of applicable investigations, there was no evidence
        that the investigator interviewed, or attempted to interview, all relevant witnesses
        identified by the complainant. The Whistleblower Investigations Manual states
        that investigators have a responsibility to fairly pursue all appropriate leads which
        develop during the course of an investigation. Contact must be made whenever
        possible with all relevant witnesses, and every attempt must be made to gather
        all pertinent data and materials from all available sources.

        Element 5 — Document complainant witness interviews via signed statement or
        digital recording — In 38 percent of applicable investigations, there was no
        evidence that the investigator obtained or attempted to obtain signed statements
        from all complainant witnesses. The Whistleblower Investigations Manual states
2
 For the purposes of our audit, we considered digital recordings to be equivalent to signed statements
when cases contained a digital recording but no signed statement.

                                                                OSHA Whistleblower Protection Program
                                                    4                    Report No. 02-10-202-10-105
                                                    U.S. Department of Labor – Office of Inspector General 




        that the investigator must attempt to obtain a signed statement from each
        relevant witness. In the event the investigator cannot obtain a signed statement,
        a memorandum setting forth all pertinent information obtained from the witness
        should be prepared.

        Element 6 — Conduct face-to-face interviews or on-site investigative work — In
        46 percent of applicable investigations, the investigator conducted the entire
        investigation by telephone or email and performed no face-to-face interviews or
        on-site investigative work. We found the emphasis placed on the importance of
        face-to-face interviews and on-site visits differed between the regions we visited,
        resulting in a range of 19 percent in Region V to 68 percent in Region III for this
        element. OSHA officials stated that due to case backlog and travel distances, it is
        not always feasible for investigators to conduct face-to-face interviews or on-site
        investigative work 3 . The Whistleblower Investigations Manual states that
        personal interviews and on-site collection of documentary evidence will be
        conducted when practical. In limited circumstances, testimony and evidence may
        be obtained by telephone, mail, or electronically.

        Element 7 — Allow complainant an adequate opportunity to refute employer’s
        defense or resolve discrepancies — In 38 percent of applicable investigations,
        there was no evidence that the investigator allowed the complainant an adequate
        opportunity to refute the employer’s defense or resolve discrepancies during the
        investigation. The OSHA Whistleblower Manual states that the investigator will
        contact the complainant during the investigation to resolve any discrepancies or
        counter allegations resulting from the investigator’s contact with the employer.

        Element 8 — Conduct closing conference with complainant — In 15 percent of
        applicable investigations, there was no evidence that the investigator conducted
        a closing conference with the complainant. The Whistleblower Manual states that
        the investigator will conduct a closing conference with the complainant after
        completion of the investigation. A thorough, tactful closing conference is a
        valuable step to achieve a successful conclusion to an investigation. Assuring the
        complainant that his or her concerns have been fully explored and the
        investigative findings impartially evaluated will minimize the likelihood of appeals
        or objections, even though the complainant may not be totally satisfied or in
        agreement with the determination. The closing conference also allows the
        complainant another opportunity to offer new evidence or witnesses.

OSHA did not always ensure these essential elements were performed because it did
not (1) supervise investigations adequately, (2) manage regional investigators’
caseloads adequately, (3) oversee and monitor investigations for compliance with
policies and procedures, (4) develop performance measures or indicators for the
whistleblower program, and (5) provide adequate guidance to investigators.

3
  If this element was eliminated from our overall projections, we estimate that 74 percent of investigations
under OSHA 11(c), SOX and STAA did not meet one or more of the remaining 7 elements essential to
the investigative process.

                                                                  OSHA Whistleblower Protection Program
                                                     5                     Report No. 02-10-202-10-105
                                                  U.S. Department of Labor – Office of Inspector General 





OSHA can improve the supervision of its investigations.

In 50 percent 4 of investigations, there was no evidence that required supervisory
reviews occurred. Specifically, 5 percent of the case files did not contain a Final
Investigation Report (FIR). In addition, 47 percent of the remaining case files contained
no indication of supervisory review on the FIR or via memorandum to the Regional
Administrator. (See Exhibit 1 for detailed projections.)

The Whistleblower Investigations Manual states that the supervisor is responsible for
providing guidance, assistance, supervision, and direction to investigators. The
supervisor will review the completed investigative case file to ensure technical accuracy,
thoroughness of the investigation, applicability of law, completeness of the report, and
merits of the case. Supervisory concurrence with the investigator’s analysis and
recommendations will be documented on the FIR or documented via memorandum to
the Regional Administrator.

Although OSHA had training requirements for its investigators, it did not have any
requirements for its supervisors. None of the 39 supervisors in the 4 regions we visited
had completed the 2 national OSHA Training Institute whistleblower investigation
courses required for all investigators. Six supervisors had completed one of the
courses, one supervisor was scheduled to take both courses in 2010, and another
supervisor was scheduled to take one course. Two regions did provide 3 days of local
training to investigators and supervisors annually. In addition to the lack of training,
three of the six supervisors we interviewed stated they had little to no experience
conducting whistleblower investigations.

Management in two regions stated that supervision was lacking during our audit period.
In Region IV, an audit reported that a lack of day-to-day supervision of investigators and
their casework resulted in a decline in the quality of the whistleblower program. The
region responded by re-organizing the program by assigning investigators to local area
offices where they would be supervised by area directors instead of dedicated Regional
Supervisory Investigators. Interviews with investigators and area directors revealed that
the area directors did not always have the time or the technical knowledge to handle the
added responsibilities.

OSHA can improve its management of regional investigators’ caseloads.

OSHA’s national office did not adequately manage regional investigators’ caseloads. As
a result, average caseloads in the regions varied from 6 to 35 open investigations per
investigator, with individual investigators’ caseloads fluctuating from 3 to 66
investigations. In Fiscal Year (FY) 2009, OSHA took an average of 150 days to



4
  This is the unbiased point estimate. Based on sample results, we are 90 percent confident that errors
ranged between 38 percent and 62 percent. See Appendix B for Sample Methodology.

                                                                 OSHA Whistleblower Protection Program
                                                    6                     Report No. 02-10-202-10-105
                                               U.S. Department of Labor – Office of Inspector General 




complete an investigation and completed only 41 percent within the statutory time
frames 5 .

According to information obtained from OSHA, an investigator can handle between six
to eight open investigations at a time. Higher caseloads cause both timeliness and
quality of investigations to suffer. One investigator we interviewed indicated that the
current investigative process was not adequately protecting whistleblowers because
investigators were less likely to conduct thorough investigations due to the high
caseloads and OSHA’s lack of staff to conduct screenings and investigations.

A review of FY 2009 investigation data showed that regions with higher caseloads
averaged at least twice the amount of open investigations and took at least twice as
long to complete investigations. The four regions with the highest caseloads, which
averaged 24 to 35 open investigations, averaged between 179 to 290 days to close an
investigation. The four regions with the lowest caseloads, which averaged 6 to 12 open
investigations, averaged between 89 to 109 days to close an investigation.

Instead of specifically budgeting full-time equivalents (FTE) to the whistleblower
programs in the regions, OSHA provided its regional offices an annual FTE ceiling as
part of the budgeting process. The regions determined how to allocate those FTEs
between the whistleblower program and all the other OSHA activities they are
responsible for, such as the compliance program.

In order to mitigate its increasing case backlog and more effectively complete
investigations, OSHA requested and received funding to hire an additional 25
whistleblower investigators in 2010. OSHA’s national office provided the regions a
specific FTE allocation for these additional whistleblower investigators. According to
information provided by OSHA management, the allocation was based on cases
received. However, this allocation did little to address the excessive caseloads carried
by certain regions. For example, Region VIII — which had the highest average caseload
of 35 investigations per investigator — was allocated three FTEs while Region VI —
which had the lowest average caseload of 6 investigations per investigator — was
allocated four FTEs.




5
 Depending on the statute involved, OSHA has statutory time frames between 30 and 90 days to
complete its investigation and make its initial findings.

                                                             OSHA Whistleblower Protection Program
                                                 7                    Report No. 02-10-202-10-105
                                             U.S. Department of Labor – Office of Inspector General 





            Regional Case Statistics and Additional FTE Allocation 6

                                         Average        Avg. Cases        Additional
                          Average           Case        Older Than              FTE
            Region       Caseload         Length          180 Days        Allocation
            VIII 35                           179                  14               3
            II 29                             290                   7               2                           

            IX                   25           264                  14               2                       

            IV 24                             181                  13               4                       

            X                    17           201                  11               1                           

            I 17                              168                   6               1                               

            V 12                              109                   5               4                           

            VII 12                             89                   5               3                   

            III 9                             100                   4               1                               

            VI 6                               97                   4               4                               

            Total 25

OSHA national office stated that the regions hired 19 of the 25 new whistleblower
investigators; however, based on a comparison of Whistleblower Program Rosters
maintained by OWPP from before and after the FY 2010 appropriation, the regions only
added (or planned to add) 16 additional investigator FTEs from FY 2009 levels.
Specifically, the regions hired 14 new investigators and had plans to hire 2 more
investigators as of September 2010. We did not include 6 investigators who were hired
to backfill previously existing positions from FY 2009 which had become vacant.

Because OSHA did not adequately manage regional investigators’ caseloads, both
timeliness and the quality of its investigations suffered. In addition, despite receiving
funding to hire 25 additional whistleblower investigators to mitigate its case backlog,
OSHA added or planned to add only 16 investigators.

OSHA can improve its oversight and monitoring of investigations for compliance
with policies and procedures.

OSHA’s audit process did not achieve national consistency in the whistleblower
program because regions were responsible for conducting their own audits with
insufficient national oversight. This created inconsistencies in how regions conducted
investigations and may have impacted the quality of those investigations



6
 Average Caseload and Average Cases Older Than 180 Days data are based on unaudited data
provided by OSHA officials in support of OSHA’s FTE allocation.

                                                          OSHA Whistleblower Protection Program
                                               8                   Report No. 02-10-202-10-105
                                            U.S. Department of Labor – Office of Inspector General 




The OSHA Whistleblower Investigations Manual assigns responsibility to the Office of
Whistleblower Protection Program (OWPP — identified in the manual as the Office of
Investigative Assistance) for conducting regional audits of case files to ensure national
consistency.

OWPP officials stated that they did not conduct regional audits due to lack of resources.
Instead, they relied on OSHA’s Management Accountability Program which requires
each region to conduct comprehensive on-site audits of approximately one quarter of its
area offices every year and regional office programs at least once every
4 years.

Although audits of the whistleblower program had been conducted in the four regions
we visited, the methodologies used to conduct the audits and the areas reviewed were
inconsistent between regions. The methodologies were not identified in the audit reports
issued in two regions. The other two regions used self-audit checklists to conduct the
audits. Depending on the region, the reports included coverage of between two to seven
of the eight investigative elements targeted by our audit. Two regions audited
themselves, the other two regions requested audits by supervisors from other regions or
OWPP staff.

The lack of oversight over the regions resulted in unique regional practices which
created inconsistencies in how regions conducted investigations and may have
impacted the quality of those investigations. For example, one region issued
withdrawals instead of dismissals when an investigator was unable to contact a
complainant. This practice denies the complainant the opportunity to appeal OSHA’s
decision. In another example, we found regions were not consistent when investigators
had difficulty locating a complainant to initiate or continue the investigation. Although the
Whistleblower Investigations Manual states that investigators should mail a certified,
return-receipt-requested letter to the complainant requesting contact within 10 days of
receipt prior to dismissing a case, two regions allowed the complainant only 5 days to
contact them. Although this practice lessens the amount of time it takes to complete
some investigations, it increases OSHA’s risk of wrongfully dismissing a complainant’s
case.

In addition to the weaknesses we identified in OSHA’s audit process, a GAO report from
January 2009 found that OSHA’s audit guidance was unclear, audits lacked
independence, and the audit process lacked accountability mechanisms for addressing
problems found in audits.

OSHA should develop performance measures or indicators for the whistleblower
program.

OSHA did not measure the performance of the whistleblower program and therefore
had no way to determine if the program was working as intended. There were no formal
management reports monitored at the national level, and reports used by regional



                                                         OSHA Whistleblower Protection Program
                                             9                    Report No. 02-10-202-10-105
                                          U.S. Department of Labor – Office of Inspector General 




management varied in nature and focused more on timeliness than quality of
investigations.

GAO’s Standards for Internal Control in the Federal Government defines the minimum
level of quality acceptable for internal control in government. These standards state
that:
       Activities need to be established to monitor performance measures and
       indicators. … Internal control monitoring should assess the quality of
       performance over time.

OSHA’s national office did not review any regular performance reports on the
whistleblower program. OWPP ran some reports from OSHA’s primary information
system, the Integrated Management Information System (IMIS), for its own information.
The OSHA Whistleblower Investigations Manual assigns overall responsibility for all
whistleblower investigative activities to 10 Regional Administrators. Under OSHA’s
organizational structure, the Regional Administrators report to OSHA’s Deputy Assistant
Secretaries, not OWPP.

In each of the regions we visited, management used varying practices to monitor the
program’s performance, which tended to focus more on timeliness than quality. Region
IV used a timeliness measure of completing investigations within 90 days and ran
weekly IMIS reports to determine regional caseload and overall performance statistics.
Regions V and VIII did not have any formal performance measures but ran semi-annual
IMIS reports to compare their performance to other regions in areas such as timeliness,
completed investigations and merit cases. Region V also ran weekly and monthly
reports to monitor the area offices, and Region VIII ran a weekly report to monitor
caseloads and the status of ongoing investigations. Region III did not have any formal
performance measures and did not use any management reports to monitor the
program’s performance.

Establishment and monitoring of performance measures and indicators are an integral
part of an entity’s planning, implementing, reviewing and accountability for stewardship
of government resources and achieving effective results. Until OSHA develops and
monitors performance measures or indicators for the whistleblower program, it will not
know if the program is successful or working as intended.

OSHA can improve the guidance provided to investigators.

Investigators were not provided adequate written guidance and access to subject matter
experts.

OSHA last updated its Whistleblower Investigations Manual in August 2003. Since then,
OSHA was assigned three new whistleblower statutes — Federal Railroad Safety Act,
National Transit Systems Security Act, and Consumer Product Safety Improvement




                                                       OSHA Whistleblower Protection Program
                                           10                   Report No. 02-10-202-10-105
                                                 U.S. Department of Labor – Office of Inspector General 




Act 7 . Although a draft version of an updated manual was circulated to the regions for
comment in 2007, an official update was never issued by OSHA. Some investigators in
the regions were using the 2007 draft manual for statutes not covered by the official
2003 manual. Because of the lack of timely updating, investigators did not have written
guidance on how to conduct investigations under these newer statutes.

In addition, while investigators were responsible for conducting investigations under all
17 statutes and most of them did not specialize in specific statutes, many did not have
access to subject matter experts for technical guidance. (See Exhibit 2 for a complete
list of the statutes under OSHA’s jurisdiction.) For example, only 1 of the 4 regions,
Region V, had a designated expert for investigations related to the SOX statute but no
designated expert for the other 16 statutes. The remaining 3 regions had no designated
experts for any of the 17 statutes. According to regional officials, some investigators had
more knowledge about various statutes than others. Investigators indicated that there
was a need for subject matter experts with the whistleblower program to deal effectively
with specialized statutes. One area director stated that the training courses were not
adequate, and that if certain investigators specialized in statutes it would be a
tremendous help to the whistleblower program, particularly in reducing the length of
time it takes to complete an investigation.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Occupational Safety and Health:

    1. Implement controls to ensure all investigations are adequately reviewed by
       supervisors, and all supervisors are adequately trained in both the legal and highly
       technical issues unique to whistleblower investigations and statutes.

    2. Implement controls to oversee and monitor caseloads in the regions to ensure 

       adequate caseload management so that all complainants receive quality 

       investigations in a timely manner. 


    3. Implement controls to oversee and monitor investigations so that investigations are
       conducted in accordance with OSHA policies and procedures and are consistent
       across all regions.

    4. Develop and monitor specific performance measures or indicators to ensure the
       whistleblower program is working as intended.

    5. Issue an updated Whistleblower Investigations Manual incorporating the
       recommendations contained in this report, and implement controls to ensure the
       manual will continue to be updated in a timely manner to reflect current policies,
       procedures, and statutes.

7
 During fieldwork for this audit, OSHA was assigned two more statutes: Section 1558 of the Affordable
Care Act and Section 1057 of the Dodd Frank Wall Street Reform and Consumer Protection Act. In
addition, amendments were issued to SOX.

                                                               OSHA Whistleblower Protection Program
                                                  11                    Report No. 02-10-202-10-105
                                         U.S. Department of Labor – Office of Inspector General 





  6. Designate subject matter experts — with technical and legal competencies in
     specific whistleblower statutes — whom investigators may contact for technical
     assistance.

We appreciate the cooperation and courtesies that OSHA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                      OSHA Whistleblower Protection Program
                                          12                   Report No. 02-10-202-10-105
             U.S. Department of Labor – Office of Inspector General 





Exhibits 





                          OSHA Whistleblower Protection Program
              13                   Report No. 02-10-202-10-105
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                          OSHA Whistleblower Protection Program
              14                   Report No. 02-10-202-10-105
                                                U.S. Department of Labor – Office of Inspector General 




                                                                                           Exhibit 1
Results Of Case File Testing

The following table shows the results and projections of our case file testing at a
90 percent confidence level with sample and universe sizes adjusted to include only
those attributes/elements determined to be applicable:

Statistical Projections
                                           Adjusted    Adjusted      Point    Lower    Upper
Attribute                     Exceptions    Sample     Universe   Estimate     Limit    Limit
Overall compliance with
eight essential elements            116        148         1471        80%      72%      87%

Eight Essential Elements
1) Conduct formal
interview with complainant           33        135        1,339        23%      14%      33%
2) Document interview
with complainant via
signed statement or digital
recording                            19         99          981        22%      13%      32%
3) Obtain suggested
witnesses from
complainant                          48        127        1,253        44%      35%      52%
4) Interview (or attempt to
interview) all pertinent
complainant witnesses                21         51          541        37%      24%      50%
5) Document complainant
witness interviews via
signed statement or digital
recording                            12         38          417        38%      23%      53%
6) Conduct face-to-face
interviews or on-site
investigative work                   66        129        1,289        46%      35%      56%
7) Allow complainant an
adequate opportunity to
refute employer’s defense
or resolve discrepancies             40        104        1,048        38%      28%      48%
8) Conduct closing
conference with
complainant                          14         99          970        15%       8%      22%

Supervisory Attributes
Case file contained a FIR            15        159        1,568         5%       1%        9%
Case file contained
supervisory review on the
FIR or a memorandum to
the Regional
Administrator                        71        144        1,498        47%      36%      58%



                                                             OSHA Whistleblower Protection Program
                                                 15                   Report No. 02-10-202-10-105
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK






                          OSHA Whistleblower Protection Program
              16                   Report No. 02-10-202-10-105
                                                        U.S. Department of Labor – Office of Inspector General 




                                                                                                        Exhibit 2 

Whistleblower Protection Statutes

The following table shows the 17 whistleblower statutes OSHA is responsible for
enforcing:


Whistleblower Protection Statutes
Cognizant
Agency                Statute                                                                                 Year 8
DOL                   Occupational Safety and Health Act                                                       1970

EPA                   Federal Water Pollution Control Act (FWPCA)                                              1972

EPA                   Safe Drinking Water Act (SDWA)                                                           1974

EPA                   Solid Waste Disposal Act (SWDA)                                                          1976

EPA                   Toxic Substances Control Act (TSCA)                                                      1976

EPA                   Clean Air Act (CAA)                                                                      1977

DOT                   International Safe Container Act (ISCA)                                                  1977

DOE                   Energy Reorganization Act (ERA)                                                          1978

DOT                   Federal Railroad Safety Act (FRSA)                                                       1980

                      Comprehensive Environmental Response, Comprehension and 

EPA                   Liability Act (CERCLA)                                                                   1980

DOT                   Surface Transportation Assistance Act (STAA)                                             1982

EPA                   Asbestos Hazard Emergency Response Act (AHERA)                                           1986

                      Wendell H. Ford Aviation Investment and Reform Act for the 21st 

FAA                   Century (AIR21)                                                                          2000

DOT                   Pipeline Safety Improvements Act (PSIA)                                                  2002

SEC                   Sarbanes-Oxley Act (SOX)                                                                 2002

DOT                   National Transit Systems Security Act (NTSSA)                                            2007

CPSC                  Consumer Product Safety Improvement Act (CPSIA)                                          2008





8
  These years represent the date the whistleblower protection provisions were added to the relevant statutes, and not
necessarily the date of the original enactment of the statutes themselves, or the date OSHA was given responsibility
for enforcement of the whistleblower provisions.

                                                                       OSHA Whistleblower Protection Program
                                                         17                     Report No. 02-10-202-10-105
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK






                          OSHA Whistleblower Protection Program
              18                   Report No. 02-10-202-10-105
               U.S. Department of Labor – Office of Inspector General 





Appendices 





                            OSHA Whistleblower Protection Program
                19                   Report No. 02-10-202-10-105
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                          OSHA Whistleblower Protection Program
              20                   Report No. 02-10-202-10-105
                                          U.S. Department of Labor – Office of Inspector General 




                                                                                 Appendix A
Background

OSHA created the Whistleblower Protection Program to enforce Section 11(c) of the
OSH Act of 1970, which prohibits employers from retaliating against employees who
exercise their rights under the OSH Act. These rights include reporting safety or health
violations to OSHA and participating in any proceeding related to an OSHA inspection.
Since 1983, OSHA has been assigned whistleblower provisions under 16 additional
statutes related to the trucking, nuclear power, pipeline, environmental, rail, consumer
product safety, and securities industries.

OSHA investigates complaints of discriminatory actions taken against employees who
“blow the whistle” under the OSH Act or any of these additional whistleblower statutes.
Depending on the statute involved, OSHA has statutory time frames between 30 and 90
days to complete its investigation and make its initial findings. The WPP operates under
OSHA’s Directorate of Enforcement Programs (DEP) within a decentralized structure of
regional and area offices. OSHA’s 10 regional administrators are responsible for
administering the program in their regions. The whistleblower program’s national office,
OWPP, is responsible for developing policies and procedures, providing training, and
offering technical assistance and legal interpretations.

The whistleblower program shares resources with OSHA’s other enforcement programs
under DEP, and distribution of those resources is determined by each of the 10 regional
administrators. In FY 2010, OSHA was given funding to hire an additional 25
whistleblower investigators in order to mitigate its increasing case backlog and more
effectively complete investigations. In FY 2009 OSHA took an average of 150 days to
complete an investigation and completed only 41 percent within the statutory time
frames.

During the audit period, 77 percent of the Whistleblower complaints under OSHA 11(c),
SOX and STAA were either dismissed or withdrawn, settlements — which accounted for
21 percent — were generally minimal, and the remaining 2 percent were found to have
merit.




                                                       OSHA Whistleblower Protection Program
                                           21                   Report No. 02-10-202-10-105
                                          U.S. Department of Labor – Office of Inspector General 





                Complaint Outcomes: OSHA 11(c), SOX & STAA cases
                Year Ending October 31, 2009
                Outcome                                      Cases
                Dismissed or Withdrawn                    1,236        77%
                Settled:
                  Monetary Compensation                     215        13%
                  Job Reinstatement                          10         1%

                  Job Reinstatement &
                  Monetary Compensation                      31         2%
                  Non-Monetary                               76         5%
                Merit                                        34         2%
                Total Cases                               1,602       100%


A review of IMIS data on settlements showed that 13 percent of complainants received
monetary compensation only, 3 percent returned to work, and 5 percent received no
monetary compensation and no job reinstatement but may have had their records
expunged. The average payment for OSHA 11(c) cases, which consisted of back wages
and compensation, was $4,800 and ranged from $8 to $129,150. The average payment
on STAA cases, which consisted of back wages and compensation, was $6,100 and
ranged from $100 to $67,500. The average payment on SOX cases, which consisted of
back wages, compensation, and punitive damages, was significantly higher at $265,000
and ranged from $14,000 to $1.9 million.

Over the past 20 years, we have issued three reports related to OSHA’s whistleblower
program. Our audits and evaluations found that investigations were not being completed
within statutory time frames, case files contained incomplete documentation, OSHA’s
policies and procedures did not cover eight of the statutes they were responsible for
enforcing, management needed to place more emphasis on case monitoring and
oversight, settlement procedures may have deprived complainants of full and
appropriate relief, and OSHA’s case management system was ineffective and not used
for reporting and monitoring.

In addition, GAO issued an audit report in January 2009 and found that OSHA lacked
reliable data on investigations and its investigators lacked the resources, training and
legal assistance required to perform investigations. Although GAO recommended that
OSHA take a number of steps to improve the accuracy of its data and enhance program
oversight, OSHA failed to provide specific information on how it would implement those
recommendations. The report also found that case processing times were affected by
increasing case complexity and increasing caseloads.

                                                       OSHA Whistleblower Protection Program
                                           22                   Report No. 02-10-202-10-105
                                                      U.S. Department of Labor – Office of Inspector General 




                                                                                                Appendix B
Objective, Scope, Methodology, and Criteria

Objective

The objective of the audit was to answer the following question:

          To what extent did OSHA ensure that complainants received appropriate
          investigations under the Whistleblower Protection Program?

Scope

The audit covered OSHA practices, policies and procedures as of June 2010. The
universe used in our audit consisted of 1,602 whistleblower investigations conducted
under the OSHA 11(c), SOX and STAA statutes, which received an initial determination
from OSHA during the 12-month period ending October 31, 2009. These investigations
accounted for 87 percent of OSHA’s caseload during our audit period. This audit was
limited to the investigative process and therefore did not test OSHA’s settlement
processes, cases that were screened out, or the appropriateness of OSHA’s
determinations.

We conducted field work at OSHA headquarters in Washington, D.C. and at four
statistically selected regional offices: Philadelphia (Region III), Atlanta (Region IV),
Chicago (Region V) and Denver (Region VIII). For Regions IV and V, we judgmentally
selected area offices for interviews 9 . OSHA has 10 regional offices in total.

We conducted case file testing on a statistical sample of 159 out of 1,568 dismissed,
withdrawn and settled investigations. In addition, we conducted case file testing on 13
out of 34 investigations where OSHA issued a merit finding; these 13 investigations
were 100 percent of the merit investigations in our audit period at the 4 regions
selected. We obtained documents and reports related to the whistleblower program
from the national and regional offices. We also interviewed national office staff, as well
as investigators and supervisors in each of the regions where fieldwork was conducted.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.




9
    Regions III and VIII did not have an area office structure for the whistleblower program.

                                                                    OSHA Whistleblower Protection Program
                                                       23                    Report No. 02-10-202-10-105
                                           U.S. Department of Labor – Office of Inspector General 




Methodology

To accomplish our objective, we obtained an understanding of OSHA’s policies and
procedures governing whistleblower investigations, and applicable laws and regulations.
We also conducted case file testing, interviewed OSHA personnel at the national and
regional levels, and reviewed documents and reports related to the whistleblower
program.

Reliability Assessment

We assessed the reliability of OSHA’s IMIS data by (1) performing tests for
completeness, accuracy and consistency of the required data elements, and (2)
reviewing existing information about the data. We determined the data was sufficiently
reliable for the purposes of this report.

Sampling

We determined a universe of 1,568 dismissed, withdrawn, and settled whistleblower
investigations conducted under the OSHA 11(c), SOX and STAA statutes which
received an initial determination from OSHA during the 12-month period ending October
31, 2009. We used a stratified two-stage cluster random sampling plan for sample
selection. OSHA’s 10 regions were stratified into 2 different strata according to the
number of investigations completed during our audit period and 4 regions were
statistically selected. From the 4 regions, we selected a statistical sample of 159
dismissed, withdrawn and settled investigations for case file testing. In addition, we
selected all 13 investigations where OSHA issued a merit finding for case file testing.

Our projections were based on the results of the case file testing for investigations that
were dismissed, withdrawn or settled. We did not project the results of our testing of the
merit investigations due to the small sample size (13) and universe size (34).

Analyses

To test investigations for compliance with OSHA’s policies and procedures, we
identified eight elements from the OSHA Whistleblower Manual as essential to the
investigative process and determined if each of the elements was performed during the
investigation. An official from OWPP concurred that these eight elements were essential
to conducting investigations. We also tested case files against two attributes related to
supervision of investigations. Documents reviewed as part of the case file testing
included investigative reports, phone/contact logs, investigator notes, memos-to-file,
complainant statements, witness statements, employer position statements, digital
recordings, screening/intake forms, and questionnaires.

During case file testing, we may have determined that an investigative element was not
applicable to a particular case. When this occurred, the lack of an investigative element



                                                        OSHA Whistleblower Protection Program
                                            24                   Report No. 02-10-202-10-105
                                             U.S. Department of Labor – Office of Inspector General 




was not classified as an exception. For example, if a case was withdrawn at a very early
stage, it may not have been appropriate to interview the complainant or witnesses.

To gain an understanding of OSHA’s internal controls over the whistleblower program,
we obtained and analyzed documents and reports related to the investigative process,
training, staffing and caseloads, performance, and prior audits. We also interviewed
OSHA personnel at the national and regional levels. At the national level we interviewed
the OSHA Director of Enforcement Programs, the Director of OWPP, and the Deputy
Director of Administrative Programs. At the regional level we interviewed investigators,
supervisors, and regional management personnel.

Internal Control

In planning and performing our audit, we considered whether internal controls significant
to the audit were properly designed and placed in operation. This included reviewing
OSHA’s policies and procedures related to conducting whistleblower investigations. We
confirmed our understanding of these controls and procedures through interviews and
case file review and analysis. We evaluated internal controls used by OSHA for
reasonable assurance that investigations were conducted according to federal
requirements and guidance. Our consideration of OSHA’s internal controls for
conducting investigations would not necessarily disclose all matters that might be
significant deficiencies. Because of inherent limitations in internal controls,
misstatements or noncompliance may nevertheless occur and not be detected.

Criteria

We used the following criteria to accomplish the audit objectives:

   •		 The Occupational Safety and Health Act of 1970, Section 11 (c)
   •		 Corporate and Criminal Fraud Accountability Act, Title VIII of the Sarbanes-Oxley Act of
       2002 (SOX)
   •		 Surface Transportation Assistance Act of 1982 (STAA)
   •		 OSHA Directive Number: DIS 0-0.9, Whistleblower Investigations Manual, August 22,
       2003
   •		 OSHA Directive Number: EAA 01-00-003, Management Accountability Program, July 23,
       2007
   •		 Secretary’s Order 5-2007 – Delegation of Authority and Assignment of Responsibility to
       the Assistant Secretary for Occupational Safety and Health
   •		 29 CFR Part 1977 - Discrimination Against Employees Exercising Rights under the
       Williams-Steiger Occupational Safety and Health Act
   •		 29 CFR Part 1978 - Rules for Implementing Section 405 of the Surface Transportation
       Assistance Act of 1982
   •		 29 CFR Part 1980 - Procedures for the Handling of Discrimination Complaints under
       Section 806 of the Corporate and Criminal Fraud Accountability Act of 2002
   •		 GAO Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1),
       November 1999



                                                          OSHA Whistleblower Protection Program
                                              25                   Report No. 02-10-202-10-105
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK






                          OSHA Whistleblower Protection Program
              26                   Report No. 02-10-202-10-105
                                       U.S. Department of Labor – Office of Inspector General



                                                                              Appendix C
Acronyms and Abbreviations


CFR             Code of Federal Regulations

DEP             Directorate of Enforcement Programs

DOL             U.S. Department of Labor

FIR             Final Investigation Report

FTE             Full-Time Equivalent

FY              Fiscal Year

GAO             Government Accountability Office

IMIS            Integrated Management Information System

OIG             Office of Inspector General

OSH             Occupational Safety and Health Act

OSHA            Occupational Safety and Health Administration

OWPP            Office of Whistleblower Protection Program

SOX             Sarbanes-Oxley Act

STAA            Surface Transportation Assistance Act




                                                    OSHA Whistleblower Protection Program
                                        27                   Report No. 02-10-202-10-105
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK






                          OSHA Whistleblower Protection Program
              28                   Report No. 02-10-202-10-105
                                U.S. Department of Labor – Office of Inspector General 




                                                                       Appendix D
OSHA Response to Draft Report




                                             OSHA Whistleblower Protection Program
                                 29                   Report No. 02-10-202-10-105
U.S. Department of Labor – Office of Inspector General 





             OSHA Whistleblower Protection Program
 30                   Report No. 02-10-202-10-105
U.S. Department of Labor – Office of Inspector General 





             OSHA Whistleblower Protection Program
 31                   Report No. 02-10-202-10-105
U.S. Department of Labor – Office of Inspector General 





             OSHA Whistleblower Protection Program
 32                   Report No. 02-10-202-10-105
U.S. Department of Labor – Office of Inspector General 





             OSHA Whistleblower Protection Program
 33                   Report No. 02-10-202-10-105
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK






                          OSHA Whistleblower Protection Program
              34                   Report No. 02-10-202-10-105
                                         U.S. Department of Labor – Office of Inspector General 




                                                                                Appendix E
Acknowledgements

Key contributors to this report were Mark Schwartz, Stephen Sovich, Cardelia Tsoi,
Sean Ally, Steven Johnson, and Miguel Hughes.




                                                      OSHA Whistleblower Protection Program
                                          35                   Report No. 02-10-202-10-105
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                          OSHA Whistleblower Protection Program
              36                   Report No. 02-10-202-10-105
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online: http://www.oig.dol.gov/   hotlineform.htm
Email: hotline@ oig.dol.gov

Telephone:     1-800-347-3756
         202-693-6999

Fax:      202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor 

         200 Constitution Avenue, N.W. 

Room            S-5506           

         Washington, D.C. 20210 

